                                                                                       li.S. Department of Homeland Security
                                                                                       3003 Chamblee-TuckerRoad
                                                                                       Atlanta, Georgia 30341




                                    June 27,2005

MEMORANDUM FOR:                     Kenneth 0 . Burris, Jr.


FROM:
                                    Field Office Director

SUBJECT:                            City of Owensboro, Kentucky
                                    FEMA Disaster No. 1310-DR-KY
                                    Audit Report No. DA-18-05



The Office of Inspector General (OIG) audited public assistance funds awarded to the City of
Owensboro, Kentucky. The objective of the audit was to determine whether the City accounted for
and expended FEMA funds according to federal regulations and FEMA guidelines.

The City received an award of $1.4 million from the Kentucky Division of Emergency Management,
a FEMA grantee, to remove debris, provide emergency protective measures, and repair facilities
damaged as a result of a January 2000 tornado. The award provided 75 percent FEMA finding for 7
large projects and 7 small projects.1 Audit work was limited to the $1,288,452 awarded and claimed
under the 7 large projects (see Exhibit).

The audit covered the period January 2000 to July 2004. During this period, the City received
$996,339 of FEMA funds under the 7 large projects.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included tests of the
City's accounting records, a judgmental sample of expenditures, and other auditing procedures
considered necessary under the circumstances.




1   Federal regulations in effect at the time of the disaster set the large project threshold at $48,900.
                                        RESULTS OF AUDIT

The City's claim included $8,171 (FEMA Share $6,128) of excess fringe benefits, labor, and
equipment charges, as follows:

   The City claimed $45,346 of overtime and compensatory time fringe benefit costs for employees
   of several City departments. The claim, however, was based on estimated fringe benefit rates
   used for budgetary purposes rather than actual rates. Using the actual fringe benefit rates, we
   determined that the City's claim should have been $41,442, or $3,904 less than the amount
   claimed. Accordingly, we question the $3,904 of excess charges, as follows:

                                                   Overtime Pay

                                Overtime Rate           Fringe     Actual    Eligible   Amount
           Dept.      Project    Labor   Claimed       Claimed      Rate     Fringe    Questioned
           Street        24     $ 13,665  22.23%         $ 3,037    17.53%    $ 2,395       $ 643
           Sanitation 24          16,787 25.67%            4,309    24.22%      4,066          243
           Facilities    24        6,197  19.61%           1,215    18.90%      1,171            44
           Engineering 24          4,708  17.05%             803    17.51%        824           (21)
           Fire          67       29,945  29.63%           8,873    28.13%      8,425           449
           Police        68       54,504  28.16%          15,348    25.12%      13,691        1,657
           Total                $125.810                $33.587              $30.572         $3.015

                                               Compensatorv Time

                            Comp. Time Rate            Fringe      Actual    Eligible     Amount
           Dept P&              Labor  Claimed         Claimed     Rate      Fringe      Questioned
           Street        24    $ 1,599  52.33%         $ 837       45.38%    $ 726       $ 111
           Sanitation    24      1,370 56.07%              768     54.18%        742          26
           Facilities    24      2,904  49.71%           1,444     49.04%      1,424          20
           Engineering   24      2,155  47.15%           1,016     44.78%         965          51
           Fire          67      8,696 59.73%            5,194     55.53%      4,829         365
           Police        68      4,292  58.26%           2,500     50.88%      2,184         316
           Total              $ 21.016                 $1 1.759              $10.870        $889



       The City claimed $6,898 of overtime labor costs under Project 68 for four police department
       management employees who were reassigned to perform emergency services work (setting
       up roadblocks, patrolling streets, directing traffic, etc.) under the project. However, contrary
       to federal regulation (U.S. Office of Management and Budget, Circular A-87, Attachment B,
       para. 1I), the claim was based on the employees' normal rate of compensation rather than the
       rate of pay for the type of services performed. Using the normal rate of compensation for
       this type of services, we determined that the value of the work performed by the management
       employees totaled $3,983. Accordingly, we question the excess charges of $2,915.

        The City claimed $4,970 under Project 24 for use of 2-ton trucks based on the FEMA
        Schedule of Equipment rates. However, the City inadvertently used incorrect hourly rates of
        $14.25 (106 hours) and $1 1.25 (307.50 hours) to calculate its claim. Using the correct hourly
        rate of $8.75, the City's claim for use of the trucks should have been $3,618 (413.50 hours x
        $8.75). Accordingly, we question the difference of $1,352.
                                     RECOMMENDATION 


We recommend that the Regional Director, in coordination with the grantee, disallow the $8,171 of
questioned costs.


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The results of the audit were discussed with City and grantee officials on May 9, 2005, and with
FEMA officials on April 22,2005. City officials concurred with the findings.

Please advise the Atlanta Field Office - Audit Division by September 27,2005, of the actions taken
to implement our recommendation. Should you have any questions concerning this report, please
contact David Kirnble or me at (770) 220-5242.
                                                        Exhibit

          City of Owensboro, Kentucky
            FEMA-Disaster 1310 -DR-KY
     Schedule of Claimed and Questioned Costs
                  Large Projects

Project      Amount      Amount             Amount
Number       Awarded     Claimed           Questioned
   4        $ 400,017 $ 400,017            $      0
   6           207,428    207,428                 0
  24           181,206     181,206            2,469
  38           253,713    253,713                 0
  67            75,126      75,126              814
  68             99,114     99,114            4,888
  69             7 1,848    71,848                0
 Total      $ 1?288,452 $1.288.452           $8.171
